Office of Inspector General
     Audit Report


FISMA 2012: ONGOING WEAKNESSES
 IMPEDE DOT’S PROGRESS TOWARD
EFFECTIVE INFORMATION SECURITY
      Department of Transportation

        Report Number: FI-2013-014
       Date Issued: November 14, 2012
           U.S. Department of
                                                                       Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FISMA 2012: Ongoing Weaknesses                                                   Date:    November 14, 2012
           Impede DOT’s Progress toward Effective
           Information Security
           Report Number: FI-2013-014

  From:    Calvin L. Scovel III                                                                 Reply to
                                                                                                Attn. of:    JA-20
           Inspector General

    To:    Acting Chief Information Officer

           The Department of Transportation’s (DOT) operations rely on more than 400
           information technology (IT) systems—nearly two-thirds of which belong to the
           Federal Aviation Administration (FAA). These systems represent an annual
           investment of approximately $3 billion—one of the largest IT investments among
           Federal civilian agencies. Moreover, the Department’s financial systems manage
           and disburse approximately $90 billion in Federal funds annually. Recently, the
           Government confirmed that foreign cyber hackers have successfully gained access
           to some critical Federal infrastructure systems.

           To protect the IT systems that support Federal operations, the Federal Information
           Security Management Act (FISMA) of 2002 requires agencies to develop,
           document, and implement departmentwide information security programs. FISMA
           also requires agency program officials, chief information officers (CIO), and
           Inspectors General to conduct annual reviews of their agency’s information
           security programs, and report the results to the Office of Management and Budget
           (OMB). As part of this review, OMB requires Inspectors General to use 96
           security metrics in 11 security areas to assess their agency’s performance.

           Consistent with FISMA and OMB requirements, our overall audit objective was to
           determine the effectiveness of DOT’s information security program and practices.
           Specifically, we assessed DOT’s (1) information security policy and procedures;
           (2) enterprise-level information security controls; 1 (3) system-level security


           1
               For purposes of this report, enterprise-level controls include security training, incident response and reporting, capital
               planning and investment control, and configuration management, and are generally not system-specific.
                                                                                                            2


controls; and (4) management of information security weaknesses. Also, as
required by OMB, we provided our results via its Web portal. 2

To conduct our audit and address OMB’s 96 metrics, we tested a statistical sample
of 58 of 420 systems, performed analytical reviews of data contained in the
Department’s Cyber Security Assessment and Management system (CSAM), 3
tested software settings in 56 general support systems, reviewed supporting
documentation, and interviewed departmental officials. We conducted this audit
between February and October 2012 in accordance with generally accepted
Government auditing standards. Exhibit A details our scope and methodology.

RESULTS IN BRIEF

Since our 2011 review, DOT has made improvements to its security controls.
Notably, it took steps to enhance the Department’s cyber security policy and
guidance, established a repository for software security baselines, and acquired
sophisticated software to improve its monitoring of security. However, the
Department has not implemented many of the recommendations we made over the
past several years that would permit it to meet Federal IT security requirements,
specifically 21 of 35 open recommendations made since 2009 remain open (see
Exhibit B). As a result, the Department’s information systems remain vulnerable
to serious security threats and risks due to the following continued deficiencies in
DOT’s information security policies, procedures, controls, and remediation
measures:

1. The Office of the Chief Information Officer (OCIO) has completed its high-
   level security policy and direction to operating administrations (OA) to
   develop their internal procedural guidance to manage information security
   effectively. However, the OAs’ CIOs are still in the process of completing
   information security procedures for several key areas, including capital
   planning for IT security. These gaps in DOT procedures have contributed to
   the other weaknesses we identified.

2. DOT’s enterprise-level controls—those that must be implemented
   Departmentwide—are still inadequate to ensure (1) that all contractors receive
   required security training, (2) sufficient coverage of DOT networks for
   detecting and reporting security incidents to the Department of Homeland
   Security (DHS), (3) reported incidents are remediated promptly, and (4)
   configuration baselines and configuration changes are appropriately managed.
   The Department took a key step in creating a repository of approved secure
2
    OMB has designated this information as “For Official Use Only.” Consequently, our submission to OMB is not
    contained in this report.
3
    CSAM tracks the system inventory, weaknesses, and other FISMA security information.
                                                                                                                   3


    software settings. Still, based on our testing of the 340 randomly selected
    computers, we estimate that 63 percent 4 satisfy the requirements for control
    setting compliance, a decline of approximately 7 percentage points from 2011.
    In addition, enterprise-level cyber security risks have not been addressed, and
    security costs were not considered when planning IT investments. For
    example, DOT requested $113 million for IT security as part of its budget
    process; however, these requests were not supported by a capital planning
    process or linked to an enterprise architecture (EA). 5

3. The Department’s system-level controls are also insufficient to protect its
   systems’ security and ensure that systems can be recovered in the event of a
   serious breach. Deficiencies remain in certification and accreditation (C&A),
   contingency plan testing, and monitoring of security controls for changes. For
   example, we project that 118 of 420 systems 6 had incomplete C&A
   documentation. We also project that OAs did not complete contingency testing
   for 202 systems. 7 Furthermore, the Department does not coordinate shared
   system security controls, and lacks adequate controls over continuous
   monitoring, oversight of contractor-operated systems, remote access, and
   account management. For example, the Department continues to be deficient in
   implementing the use of two-factor authentication to secure remote access to
   its systems. To better monitor weaknesses and enhance system security, the
   Department has acquired a highly complex software tool which, if
   implemented properly, will enable management to more quickly identify and
   remediate security threats.

4. The Department still lacks an effective process for timely remediation of
   security weaknesses. Of the 5,265 open plans of action and milestones
   (POA&M), 2,161 had passed their due dates for resolution; 432 are a year
   overdue.

We are making a series of recommendations to help the Department establish and
maintain an effective information security program—one that complies with
FISMA, OMB, and other requirements.




4
  Our estimate has a margin of error of +/-26 percentage points at the 90 percent level of confidence.
5
   An EA defines the agency’s mission, the information and technologies necessary to perform the mission, and the
  transitional processes for implementing new technologies in response to changing mission needs. EA includes a
  baseline (as-is) and target (to-be) architecture, and a sequencing plan.
6
  Our estimate has a margin of error of +/-38 systems or 9.0 percentage points at the 90 percent level of confidence.
7
  Our estimate has a margin of error of +/-51 or 12.2 percent at the 90 percent level of confidence.
                                                                                                                  4


BACKGROUND

FISMA requires each Federal agency’s information security program to secure the
information and information systems that support the agency’s operations,
including those provided or managed by another agency, a contractor, or other
entity. FISMA also requires each agency to report annually to OMB, Congress,
and the Government Accountability Office (GAO) on the effectiveness of its
information security policies, procedures, and practices. In its Circular A-130,
Appendix III, “Security of Federal Automated Information Resources,” OMB
requires Federal agencies to plan for security, ensure that appropriate officials are
assigned security responsibilities, periodically review the security controls in their
information systems, and authorize system processing prior to operations and
periodically thereafter.

DOT’s 13 OAs collectively manage 428 information systems, about two-thirds of
which are managed by FAA (see Exhibit C). DOT relies on these systems to carry
out its complex mission, including ensuring safe air traffic control operations,
preventing unqualified drivers from obtaining commercial driver’s licenses, and
identifying safety defects in vehicles, as well as protecting billions of dollars in
funds for highway reconstruction, high-speed rail development, and law
enforcement grants.

Since 2002, we have reported on weaknesses in DOT’s information security
program and practices. In our three most recent reports, we reported the following:

• November 2009: We reported that DOT had issued its information security
  policy—the first step in the development of a sustainable information security
  program—and improved its Common Operating Environment’s 8 (COE)
  compliance with the Federal Desk Core Configuration (FDCC). 9 However, the
  Department had not made sufficient progress in other areas. Its security
  program did not meet all Federal requirements and was not as effective as it
  should have been. 10

• November 2010: We reported that the Department had successfully provided
  security awareness training to over 90 percent of its employees, but had not
  made sufficient progress in other critical areas. 11 In its assurance letter to the

8
   COE is a network that provides DOT headquarters and most OAs with common IT services, such as e-mail.
9
   FDCCs are security configuration settings developed by the National Institute of Standards and Technology (NIST),
   the Department of Defense, and DHS for certain Windows operating systems. OMB has mandated agencies to adopt
   these settings. Subsequently, the FDCCs were expanded and called the United States Government Configuration
   Baseline (USGCB).
10
   OIG, Audit of DOT’s Information Security Program and Practices, FI-2010-023, November 18, 2009.
11
   OIG, Timely Actions Needed to Improve DOT’s Cybersecurity, FI-2011-022, November 15, 2010.
                                                                                                                        5


      President, the Department reported that its non-compliance with FISMA during
      2010 constituted a material weakness in internal controls.

• November 2011: We reported that the Department had made some
  improvements in its cyber security. It had developed comprehensive cyber
  security policy for the entire Department, except for the Office of the Secretary
  (OST), and reported all major security incidents to DHS. However, it had not
  corrected weaknesses in its information security procedures, enterprise-level
  and system-level controls, and management of corrective actions. 12 Overall,
  the Department’s information security system was still not effective.

The most significant change to this year’s metrics is that DHS categorized each
metric as a President’s Administration priority, a key FISMA metric, or a baseline
question 13 to assist agencies in prioritizing actions to address information security
weaknesses.

DESPITE IMPROVEMENTS, DOT’S INFORMATION SECURITY
POLICIES AND PROCEDURES REMAIN INCOMPLETE

FISMA requires each department’s CIO to develop and maintain information
security policies, procedures, and control techniques to address security
requirements. In prior reports, we recommended revisions to DOT’s policies that
direct its OAs’ security efforts. During 2012 and in response to our
recommendations, OCIO:

• issued a cyber security policy for OST;
• issued the Interim Security Weakness Management Guide;
• issued the FISMA Inventory Guide which defines information systems and
  provides guidance on how to identify them; and
• developed a SharePoint site to collect OA cyber security procedures.

Also, in response to our prior three reports, OCIO delegated authority to the OAs
to develop supplemental guidance for how to effectively and consistently
implement information security. However, as of the end of fiscal year 2012, the
guidance remains incomplete. The CIO informed us that his office will review
each OA’s guidance, once developed, to ensure it aligns with Departmental policy.
Table 1 highlights the most important areas that remain outstanding.

12
     OIG, Persistent Weaknesses in DOT’s Controls Challenge the Protection and Security of Its Information Systems,
     FI-2012-007, November 14, 2011.
13
     Administration Priorities are metrics for Trusted Internet Connection capabilities and utilization, mandatory
     authentication and Personal Identify Verification (PIV), and continuous monitoring. The next tier is Key FISMA
     Metrics which include areas such as cloud, remote access, and incident detection. The final tier is Baseline metrics,
     which are used to establish current performance to be used to evaluate future performance.
                                                                                                                     6


Table 1: Most Significant Deficiencies in Procedures
FISMA Security Program Area                           OIG Evaluation
Certification and Accreditation (C&A) of Controls
The assessment of security controls to                Procedures for accepting and monitoring shared
determine if the controls have been                   security controls have not been developed.
implemented effectively.
Continuous Monitoring of Controls
Part of the security authorization process            Procedures are in draft and require additional detail
to ensure that controls remain effective              to guide OA personnel in the development of
over time.                                            monitoring practices.
Capital Planning and Investment
Policy and procedures that ensure that                Procedures for management of security costs as
security funding is incorporated into                 part of IT capital planning are not developed. In
system budgeting.                                     addition, there are not procedures to develop an EA.
Source: OIG Analysis

The lack of adequate procedures on security requirements creates the possibility
that security controls will not be properly applied throughout the Department to
protect information systems. Absence of procedures has contributed to the other
weaknesses we identified.

DOT CONTINUES TO LACK THE ENTERPRISE-LEVEL
CONTROLS NEEDED TO SAFEGUARD ITS IT SYSTEMS

DOT’s enterprise-level controls are still inadequate to ensure that contractors
receive required security training, security incidents are detected and reported,
configuration baselines are appropriately managed, risks are addressed at all levels
of the Department, and that security costs are considered when planning IT
investments.

DOT Cannot Accurately Track Contractors’ IT Security Training

FISMA requires agencies to develop and maintain a comprehensive security
training program that ensures that all computer users 14 are adequately trained in
their security responsibilities before they are allowed access to agency information
systems. In prior years, we have reported that DOT’s controls for tracking the
number of contractors it has employed are inadequate, resulting in the inability to
track training completion for contractors. Over the past year, OCIO has taken a
significant step in this area by entering a memorandum of understanding with
FAA that requires FAA to maintain a Web site, Sat.DOT.Gov, where all DOT
contractors can take the required security awareness training. FAA also maintains
14
     Users may include employees, contractors, foreign or domestic guest researchers, other agency personnel, visitors,
     guests, and other collaborators or associates requiring access.
                                                                                                                       7


a repository of statistics on about 13,000 DOT contractors who have received
security awareness training.

However, DOT cannot ensure that all contractors are taking required training due
to several weaknesses. First, OAs do not reconcile the number of contractors on
board to those who FAA reports as having received training. Second, DOT lacks a
robust process to ensure all contractors are identified. Third, some contractors
cannot access Sat.DOT.Gov for various reasons, including a lack of user
identifications and passwords for log in. Finally, DOT does not address security
training for contractors who do not have access to systems because of services
they provide, such as security guards. The lack of proper computer security
training for contractors creates a risk for several vulnerabilities, including ID and
password sharing, acceptance of malicious code through phishing or social
engineering, poor password development, and Internet misuse.

DOT’s Incident Reporting and Remediation Process Remain
Insufficient

DOT policy requires the Department’s Cyber Security Management Center
(CSMC) to have full network visibility over all DOT systems, including systems
operated on behalf of the OAs by contractors and other government organizations.
CSMC reported that from October 1, 2011, to September 14, 2012, it successfully
remediated 1,969 incidents. However, it does not monitor all departmental
networks—including the United States Merchant Marine Academy’s (USMMA)
network and many of FAA’s networks—for intrusions. These monitoring gaps
impede CSMC’s ability to ensure all incidents are reported to US-CERT 15 as
required by OMB and to remediate all possible security incidents.

OMB requires agencies to respond to incidents in a timely manner to minimize
further damage. However, DOT policy does not address remediation timeframes.
In some cases, the time it took to complete remediation appears excessive given
the risks involved. For example, remediation of unauthorized access
(Category 1) 16 averaged 20 days; while incidents of malicious code (Category 3)
averaged 17 days (see Table 2).




15
      The United States Emergency Readiness Team—or US-CERT—is a system managed by the Department of
     Homeland Security to coordinate cyber information sharing and proactively manage cyber risks to the Nation while
     protecting its citizens’ constitutional rights.
16
     Incidents are classified into categories to simplify incident reporting to US-CERT. The categories do not prioritize
     timeframes for remediation.
                                                                                                           8


Table 2: CSMC’s Remediation of Security Incidents during Fiscal
Year 2012, by Category
                           a
US-CERT Category                                               Remediated       Average Days to
                                                                 Incidents           Remediate
    0 Exercise/Network Defense Testing                                     6                       2
1 Unauthorized Access                                                   151                       20
3 Malicious Code                                                      1,320                       17
4 Improper Usage                                                        274                       10
5 Scans/Probes/Attempted Access                                           72                      14
6 Investigation                                                         146                       21
Source: OIG Analysis
a
    No incidents in Category 2 (Denial of Services) were reported.


The lack of comprehensive network monitoring makes it difficult for DOT to
ensure that all security incidents are detected, reported, and resolved. Furthermore,
the lack of timeframes for resolution increases the risk that critical incidents will
not be resolved in a timely manner and expose systems to unnecessary
compromise for an excessive amount of time.

DOT Has Not Made Progress in Meeting Configuration Standards

OMB requires compliance with minimally acceptable system configuration
requirements for commercial software. Configurations that meet these
requirements provide a baseline level of security and ensure the efficient use of
resources. To improve the Department’s compliance, OCIO created a repository of
approved software configurations and a process to review departures from the
required settings. However, we found deficiencies in DOT's compliance with the
U.S. Government Configuration Baseline (USGCB) settings, and incomplete
implementation of other configuration standards throughout the Department.
Inadequately configured software also increases security vulnerabilities that could
impact DOT’s mission and business operations.

OAs’ Commercial Operating Systems Do Not Comply With USGCB
Security Requirements

OMB requires agencies to adopt USGCB for Microsoft Windows operating
systems and to assess compliance with these requirements. OMB further requires
agencies to be 100 percent compliant. However, not all DOT systems are
configured to meet these requirements. We selected a statistical sample of 1,257 of
82,963 17 computers from all OAs except the Surface Transportation Board

17
     We obtained the universe of computer devices from a proprietary database known as Active Directory.
                                                                                                                     9


(STB). 18 OAs could not locate 917 of the 1,257 computers. Based on this, we
estimate that OAs could not find or test 56.4 percent, or 46,791 19 of 82,963 total
computers during compliance scanning. As a result, OAs cannot determine if these
computers comply with USGCB settings. We tested the remaining 340 sampled
Windows computers for these settings. Based on this, we estimate that 63
percent 20 of the approximately 36,150 available Windows computers in the
Department’s universe of computers and servers 21 met baseline settings. This is a
decline of 7 percentage points from 2011. See Table 3 for details on the controls
that passed and failed.

Table 3: Results of Sample Testing on USGCB for Windows
Operating Systems
Component General Support                       Computers          Tested        Passed          Failed      Percent
       a
Systems                                           Sampled                                                    Passed

FAA                                                      127        27,981        14,781        13,200           53%
Federal Motor Carrier Safety
Administration (FMCSA) Field Sites                         54        8,928         5,331          3,597          60%
         b
COE                                                        60       14,454         5,079          9,375          35%
John A. Volpe National
Transportation Systems Center                              36        6,304         3,326          2,978          53%
USMMA                                                      17        4,437         4,346             91          98%
OIG                                                        46       11,960        11,465            495          96%
Totals                                                   340        74,064        44,328        29,736
Source: OIG Analysis
a
     OMB Circular A-130, Appendix III, defines general support system as an interconnected set of information resources
      under the same direct management control that shares common functionality.
b
     The Department’s consolidated OAs’ common network infrastructures (email, desktop computing and local area
      networks) into a common IT infrastructure.

One of the Department’s controls for ensuring the use of these approved
configuration settings is the application of uniform approved USGCB settings to
all workstations. However, we found that these settings varied between
workstations. For example, we found up to 45 different settings on workstations
within FAA, the Maritime Administration (MARAD), the National Highway
Traffic Safety Administration (NHTSA), and the Federal Highway Administration
(FHWA).

In addition, DOT’s reports on its maintenance of USGCB baseline security
settings, which OMB requires departments to submit monthly, have been

18
   The STB CIO did not provide information due to IT resource constraints. Exhibit C defines STB obligation to
   comply with DOT requirements.
19
   Our estimate has a margin of error of +/-5.2 percentage points at the 90 percent level of confidence.
20
   Our estimate has a margin of error of +/-26 percentage points at the 90 percent level of confidence.
21
   We tested to verify USGCB settings for the Windows Operating System.
                                                                               10


incomplete. For example, COE and CSMC reports showed that tests for USGCB
settings were not run or were incomplete for two-thirds of the COE and CSMC
workstations in our sample. This occurred in part because some workstations
under COE’s responsibility were not configured to allow automated testing.

OAs’ Configuration Management Procedures Do Not Comply With OMB
Policy

OMB requires agencies to develop configuration management policies that include
approval and documentation of configuration changes to both hardware and
software. In addition, OMB recommends the use of automated tools to manage
and communicate configuration changes. However, STB did not provide adequate
evidence of approvals for system changes. Furthermore, the Federal Motor Carrier
Safety Administration’s (FMCSA) field sites do not use computer applications to
track and record network changes; this is performed manually.

NHTSA and the Saint Lawrence Seaway Development Corporation (SLSDC) rely
on COE for all of their configuration management controls. However, the
Department has not implemented a number of these key controls. For example, the
COE’s configuration baselines are not up-to-date, and its configuration changes
are not documented or approved by the COE manager.

DOT Has Not Implemented a Departmentwide Risk Management
Program

OMB requires agencies to implement a risk management program that includes a
governance structure for managing and monitoring risk at three levels: enterprise,
business process, and system. However, DOT has not created this enterprisewide
governance structure, and only addresses risk at the system level as part of the
certification and accreditation process.

Similarly, OAs, with the exception of NHTSA and the Pipeline and Hazardous
Materials Safety Administration (PHMSA), do not have risk management
programs and only address risk when accrediting systems. This limited view will
likely result in an inadequate understanding and consideration of how information
security risk, like other organizational risks, affects the likelihood of DOT
successfully carrying out its missions and business functions.

The Department’s Capital Planning and Investment Control Process
Does Not Adequately Address Security

During fiscal year 2012, DOT requested $113 million for IT security from
OMB—an approximate increase of $15 million over its fiscal year 2011 request.
                                                                                                                     11


To ensure an adequate budget for security, OMB requires agencies to plan for and
track information security costs as part of their capital planning process and to link
these costs to the agencies’ enterprise architectures. However, DOT’s requests
were not supported by a capital planning process or linked to an EA. Furthermore,
only NHTSA and SLSDC have a process to estimate security costs (see Table 4).

Table 4: OAs’ IT Security Funding Estimation Process
OA                   Total IT investment,          Security investment,           Security Cost Estimation
                                                                                                  a
                      dollars in millions            dollars in millions                  Process
FAA                               $2,764.07                          $72.92                    Partial
FHWA                                    46.99                           6.43                   Partial
FMCSA                                   24.20                           1.28                   Partial
FRA                                     18.83                           1.59                   Partial
FTA                                     18.56                             .46                    No
MARAD                                   13.35                           1.11                     No
NHTSA                                   24.74                             .96                   Yes
OIG                                      3.95                             .09                    No
OST                                   154.22                           26.92                     No
PHMSA                                    9.09                             .43                  Partial
      b
RITA                                    16.62                             .95                    No
SLSDC                                      .16                            .04                   Yes
STB                                      2.13                               0                    No
Total                                  $3097                            $113
Source: WorkLenz–the Department’s investment portfolio system, as of September 2012.
a
  An organization’s approach to its selection, management, and evaluation of IT security investments with use of a
  security model defined in the EA.
b
  Research and Innovative Technology Administration

DOT has not provided OAs with guidance on estimating IT security costs or
implemented controls to ensure these costs are reasonable. OAs self-report their
security estimates to OCIO for reporting to OMB and are not accountable for the
reasonableness of their estimates. OCIO reported that as part of its changes to the
Department’s EA, which it plans to complete by the end of fiscal year 2014, it is
integrating IT security into capital planning and investment control. However,
OCIO provided no plan for these efforts or policy and procedures for the
integration of EA and IT security into the capital planning and investment control
process. In addition, OAs reported that they have not received direction from the
OCIO on the development of the EA. Without a security estimation process linked
to capital planning and EA, the Department is unable to ensure that funding for
critical security needs is cost effective.
                                                                                   12


DOT’S SYSTEM-LEVEL CONTROLS ARE NOT SUFFICIENT TO
KEEP SYSTEMS SECURE OR ENSURE RECOVERY

The Department’s system-level controls are insufficient to protect the systems’
security and ensure that the systems can be recovered in the event of a serious
breach. Persistent deficiencies continue to impede DOT efforts to comply with
requirements for C&A and contingency plan testing, shared system security
controls, continuous monitoring of security controls, oversight of contractor-
operated systems, and controls over remote access and identity and account
management.

Certification and Accreditation Process and Contingency Plan
Testing Are Incomplete

As of September 2012, 11 DOT systems were unaccredited, meaning they were
not authorized to operate (see Table 5). OMB Circular A-130, Appendix III,
Security of Federal Automated Information Resources, requires Federal systems to
be reauthorized—or reaccredited—at least once every 3 years through a C&A
process. Certification of a system requires assessing risk, planning security, testing
of minimum security controls, creating plans of actions for identified weaknesses,
and mitigating risks. An authorizing officer appointed by the agency, typically a
senior executive, reviews the certification results and reaccredits the system when
he or she determines that the system’s operation poses minimal security risk.
DOT’s 11 unaccredited systems represent an increase over last year’s 8
unaccredited systems. Of the 11, 4 have been overdue since 2010 and one since
2009.

Table 5: DOT Systems with Expired C&A
OA        System                                                 Expiration   Total
                                                                      Date Systems
FMCSA     Analysis and Information                                6/26/3012
          Safety and Fitness Electronic Records                   5/29/2012
          SAFETYNET                                               3/16/2012        3
FRA       Procurement Information System for Management           9/10/2012        1
NHTSA     FARS                                                    5/14/2012        1
OST       Correspondence Control Management System               10/31/2010        1
RITA      Mission Support                                         7/30/2009
          Transportation Safety Institute Infrastructure          1/02/2010
          Web                                                     5/31/2010
          Transtat                                                5/16/2011        4
STB       Case Management System                                  11/6/2010        1
Total                                                                             11
Source: OIG Analysis
                                                                                                        13



We evaluated a random sample of 60 of DOT’s 420 IT systems. 22 We found that
24 of the 60 sample systems had incomplete C&A documentation, and 31 systems
did not receive complete security control testing. Based on these results, we
estimate that 118 of 420 systems 23 in the DOT universe had incomplete C&A
documentation and 169 24 did not receive complete security control testing (see
Table 6).

Table 6: Sample Systems’ C&A, Control Testing, and
Contingency Plans
OA                      Systems       Systems without          Systems without     Systems with deficient
                          tested        adequate C&A                  complete             or inadequate
                                                                 control testing contingency plan/testing
FAA                             22                         3                       5                     8
FHWA                              5                        2                       5                     2
FMCSA                             3                        3                       3                     3
FRA                               2                        2                       0                     1
FTA                               2                        1                       2                     0
MARAD                             3                        3                       3                     3
NHTSA                             2                        0                       0                     0
OIG                               2                        2                       2                     1
        a
OST                             10                         4                       4                     5
PHMSA                             2                        0                       0                     2
RITA                              4                        3                       4                     4
SLSDC                             1                        0                       1                     0
STB                               2                        1                       2                     2
Total                           60                       24                       31                   31
Source: OIG Analysis
a
    For purposes of this report, COE systems are counted under Office of the Secretary.

DOT also lacks a plan for the recovery of its IT systems in the event of a
disruption. Both NIST and OMB require Federal agencies to implement plans for
recovering their information systems after unforeseen shutdowns. Agencies must
also annually test their contingency plans to ensure the plans will function
properly when needed. Thirty-one of the 60 systems in our sample had missing or
inadequate contingency plans or plan testing. Table 7 provides some examples.



22
   We selected a random sample of 58, or 4.5 percent, of DOT’s systems. One system was made up of three
   subsystems, 1) Campus Area Network, 2) Common Operating Environment, and 3) Helpdesk, bringing our sample
   to 60 systems.
23
   Our estimate has a margin of error of +/-38 system or 9.0 percent at the 90 percent level of confidence.
24
   Our estimate has a margin of error of +/-44 system or 10.4 percent at the 90 percent level of confidence.
                                                                                                                                   14


Table 7: Sample Systems’ Contingency Plans Preparation,
Training, and Testing Results with Identified Deficiencies by OA




                                                                                MARAD




                                                                                                            PHMSA
                                                            FMCSA




                                                                                        NHTSA




                                                                                                                           SLSDC
                                                     FHWA




                                                                                                                    RITA
                                                                                                      OST
                                               FAA




                                                                    FRA




                                                                                                                                   STB
                                                                          FTA




                                                                                                OIG
Description a
Business Continuity and Disaster
Recovery Plan (BCDRP) did not
exist.                                         X            X       X           X               X     X     X       X              X
BCDRP not revised to correct
deficiencies found during testing.             X     X      X       X     X                     X     X     X       X              X
Contingency exercises tested
and failed.                                    X            X                           X             X     X       X              X
Contingency plans not tested.                  X            X       X                           X     X             X              X
Contingency test results not
reported.                                      X     X      X       X                           X     X             X              X
No evidence of system backup at
alternative processing sites.                  X            X       X                                 X             X              X
System backup not in
accordance with procedures.                    X            X       X     X                     X     X             X              X
Alternative processing sites
vulnerable to the same risks as
primary sites.                                 X            X       X           X                     X             X      X       X
No evidence of risk assessment
performed for alternative
processing sites.                              X     X      X                   X               X           X       X              X
Source: OIG Analysis
a
    The deficiency described was found in one or more OA’s sample systems that OIG assessed.


Based on these results, we estimate that OAs did not complete contingency testing
for 202 of DOT’s 420 systems. 25 Without proper C&A, serious system weaknesses
may remain unidentified. Consequently, the Department cannot ensure that its
systems are reasonably protected against security threats. Furthermore, a lack of
complete contingency testing means that OAs may not be able to recover their
systems from unplanned shutdowns in time to minimize business disruption.

DOT Does Not Coordinate the Use of Shared System Security
Controls

NIST requires providers of common controls—security controls that support
multiple information systems—to have policies and procedures for their use,
document the controls in a separate security plan, conduct a C&A of the common
controls, monitor their effectiveness, and inform users when changes occur that

25
     Our estimate has a margin of error of +/-51 or 12.2 percent at the 90 percent level of confidence.
                                                                                 15


may adversely affect the protections provided by or expected of these controls.
NIST also requires that the senior information security officer for the organization
coordinate with common control providers to ensure that the required controls are
developed, implemented, and assessed for effectiveness. However, DOT does not
have common control procedures. Furthermore, DOT providers do not have a
security plan or a formal process to advise users when the common controls are
not effective or in place. In addition, system managers who use inherited
controls—a control that is part of a network and used by a software application
that resides on the network—frequently do not verify the functionality of the
control as part of their system accreditation process. Finally, there is no
coordination to ensure that the controls are effective. All 13 OAs used common
controls as part of their system C&As, but none had a documented process for the
use of the common controls or had verified the functionality of inherited controls.
The lack of adequate management of common controls results in numerous
systems that have been accredited while relying on missing controls and hence are
operating at an unacceptable level of risk.

DOT’s Continuous Monitoring of Security Controls Remains
Ineffective

OMB guidance calls for agencies to develop strategies for the continuous
monitoring of security control effectiveness. DOT has deferred implementation of
continuous monitoring to the OAs; however, as in previous years, the
Department’s continuous monitoring policy and procedures were not sufficiently
detailed to ensure OAs comply with OMB’s guidance. For example:

• Four of the 13 OAs—FAA, MARAD, OIG, and OST—continuous monitoring
  policies and procedures are still in draft form. FHWA and FMCSA have plans,
  but have not begun to develop continuous monitoring policies and
  procedures. RITA, SLSDC, and STB either did not have or did not provide
  documentation that addressed continuous monitoring policies and procedures.
• FAA, FHWA, FMCSA, MARAD, NHTSA, OST, RITA, SLSDC and STB
  reported that they annually assess selected security controls but do not perform
  continuous monitoring.
• Thirty sample systems failed our reviews of continuous monitoring processes.
  These systems are at FAA, FHWA, FMCSA, FTA, MARAD, OST, RITA,
  SLSDC, and STB.

The Department’s lack of guidance on continuous control monitoring diminishes
the OAs’ abilities to monitor their systems’ security, and to respond quickly to
new threats. To address these weaknesses, OCIO has informed us that it recently
acquired a highly complex software solution, which they are piloting. If properly
                                                                                                      16


implemented, this software will allow management to rapidly remediate
weaknesses and protect systems, and instantaneously report on security status.

OAs Do Not Designate All Contractor-Operated Systems in
Accordance with OMB Guidance

OMB also requires agencies to maintain up-to-date inventories of their
information systems. 26 These inventories must designate each system as either
“contractor operated” or “organization operated,” based on who manages the
system—the Federal agency or an outside entity. Specifically, contractor operated
systems are those that are either fully or partially owned or operated by another
agency, a contractor, or other entity. For fiscal year 2012, OCIO provided OAs
new guidance 27 that includes this definition of contractor operated. However, OAs
are not designating all their systems in accordance with the guidance. We
determined that 24 of the 60 systems were contractor systems, but only 4 were
designated as such.

Because contractors or other entities, rather than the OAs, manage the security
controls in contractor operated systems, the systems represent higher risk to the
Department. The lack of an accurate inventory of these systems makes it difficult
for the Department to know which systems it is not managing and consequently
pose higher risk.

DOT Lacks a Secure Remote Access Management Program

OMB and NIST provide guidance for agencies on controlling remote access to
their systems, and DOT has incorporated the guidance into its policy. DOT OCIO
policy on remote access delegates responsibility to OAs for documenting,
managing, and controlling remote access of the systems under their control. 28
However, the OAs’ remote access controls do not comply with DOT’s policies
and guidance. For example:

• COE, STB, and Volpe do not require the use of multifactor authentication.
• COE, Volpe, FMCSA field sites, and STB do not fully comply with NIST
  guidance for authorizing, monitoring, and controlling remote access.
• STB reported it has not established a process for securing and monitoring
  remote devices.

26
   OMB defines “contractor system” as any system fully or partially provided or managed by another agency,
   contractor, or other source.
27
   DOT FISMA Inventory Guide, 6 June 2012.
28
   Remote access management to DOT information and information systems is separated among 7 entities; COE,
   FMCSA for field sites, OIG, STB, Volpe, USMMA, and FAA. COE manages remote access for these OAs with
   exception of STB and FMCSA field sites.
                                                                                 17



Without effective controls over remote access, DOT cannot ensure that only
authorized computers and personnel access its information systems or minimize
risks of malware on its networks or loss of sensitive information.

DOT Has Not Fully Implemented Use of Personal Identity
Verification Cards for Multifactor User Identity Authentication for
System Access

OMB required that, by 2012, all Federal personnel use personal identify
verification (PIV) cards to log on to agency computers for multifactor user identity
authentication. In a briefing to the CIO Council in December 2011, the
Department indicated that it would require PIV card login for 75 percent of
desktop and laptop users by September 30, 2012. However, as of June 2012, only
42 percent of DOT’s systems are enabled for user logon with PIVs, and only 7
percent of the Department’s systems require the use of PIV for user identity
authentication. Because DOT does not fully employ multi-factor authentication for
computer users, it is unable to adequately authenticate the identities of all users.

DOT’s Account Management Program Remains Incomplete

While the Department is working to resolve the account management issues we
identified in our 2011 report, its account management controls still do not meet
DOT and NIST policies and guidance, exposing DOT to increased risk of
unauthorized access to information systems. For example:

• The Department does not adequately distinguish between user and non-user
  accounts, as required by NIST. Proper identification of accounts is essential to
  prevent non-user accounts from being used to gain unauthorized access to the
  systems.
• The Department does not disable inactive accounts within the departmentally
  mandated time frame of 60 days.

DOT CONTINUES TO LACK AN EFFECTIVE PROCESS FOR THE
REMEDIATION OF SECURITY WEAKNESSES

FISMA requires agencies to develop a process to remediate information security
weaknesses. OMB similarly requires departments to develop POA&Ms for
detected system weaknesses and to prioritize remediation based on the seriousness
of each weakness. OAs designate weaknesses as high, medium, or low priority for
remediation.
                                                                                                                     18


However, the Department has not improved its management of information
security weaknesses. Of the 5,265 open POA&Ms, 2,161 were past their due dates
for resolution, including 432 that are over a year overdue. These numbers
represent a 7 percentage points increase in incomplete POA&Ms over 2011. We
also found that 132 of these open POA&Ms have no completion dates (see
Table 8).

Table 8: DOT’s Open POA&Ms and Days Overdue, as of July 31,
2012
                                              Days Overdue                            Summary of Timeliness
               Number                                                                         Issues
     OA        of Open         1–60 61–90 91-120 121–365                   366+      No due     Total    Total
               POA&Ms                                                                  date overdue, overdue,
                                                                                             current expected
COE                      7         1         0          2            0         4            0            7             0
FAA                4, 3 97      40 0      12 2        99          51 0      32 9          20       1, 4 80       2, 9 17
FHWA                    25         6         0          0            1         0            0            7            18
FMCSA                 29 8      13 0         0          0          79          0          82          29 1             7
FRA                     26         6         0          0            0       19             1           26             0
FTA                     30         0         0          0          12          1            0           13            17
MARAD                 16 9       98          0          4          44          0            0         14 6            23
NHTSA                    0         0         0          0            0         0            0            0             0
OIG                     13         0         0          0            0       13             0           13             0
OST                   11 8       24          0          0          43          4            0           71            47
PHMSA                   39         9         0          0            0         0          26            35             4
RITA                    32         0         0          0            0       10             1           11            21
SLSDC                    3         1         0          0            0         0            0            1             2
STB                   10 8         5         0          0            1       52             2           60            48
Total              5, 2 65      68 0     12 2        10 5         69 0      43 2         13 2      2, 1 61       3, 1 04
Source: DOT Open POA&Ms in Cyber Security Assessment and Management (CSAM) system

Departmental policy requires OAs to record all known weaknesses in the
Department’s CSAM database—a repository meant to facilitate tracking of
security weaknesses and their remediation. However, we found that 18 of our 60
sample systems had POA&Ms that OAs had not recorded in CSAM. Based on
these results, we estimate that 96 systems out of 420 29 did not have all known
POA&Ms recorded in CSAM.

Finally, OMB guidance calls for CIOs to meet with their OAs quarterly to review
progress on POA&M completion. From the evidence OCIO provided us, it only

29
     Our estimate has a margin of error of +/-39 systems or 9.2 percent at the 90 percent level of confidence.
                                                                                  19


met with OAs in September 2012, not quarterly. Completing POA&Ms in a timely
manner is critical to ensuring that systems are adequately secured and protected
because weaknesses that are unresolved for extended periods of time create the
risk of exploitation.

CONCLUSION

Protecting DOT’s information systems is critical for ensuring the Nation’s
transportation systems run smoothly and safely and Federal dollars for major
programs are used efficiently and appropriately. While DOT has finalized its
information security policy and initiated a number of initiatives to enhance it cyber
security program, persistent control weaknesses continue to put at risk the
confidentiality, integrity, and availability of the Department’s information. These
weaknesses, many of which are longstanding, also render DOT vulnerable to
hackers and others who continue to aggressively probe and compromise Federal
networks. Until DOT takes additional actions to correct these weaknesses and
comply with Federal requirements, it will continue to expose its IT systems to
serious security risks.
                                                                                20


RECOMMENDATIONS

To help the Department address the challenges in developing a mature and
effective information security program, we recommend that the Acting Chief
Information Officer take the following actions in addition to 21 recommendations
that are still open from prior FISMA reports:

Information Security Policy

1. Work with Operating Administrations to enhance and develop their internal
   procedures for inheriting controls, continuous monitoring, and capital planning
   to better address key NIST requirements.

Enterprise-Level Weaknesses

2. Establish timeframes for incident remediation based on risk.
3. Remove inactive computer devices from the Active Directory databases by (a)
   requiring the OAs to develop a POA&M to address the removal of such
   devices in a timely manner, (b) reviewing the adequacy of the POA&Ms, and
   (c) monitoring the OA’s clean-up process through completion.
4. Develop, document and approve an enterprise-wide risk management program
   and strategy as defined by NIST 800-39.

Information System Security

5. Identify and work with common control providers to develop and implement a
   security plan that will ensure that systems that inherit common controls are
   adequately protected and C&A’d.


AGENCY COMMENTS AND OIG RESPONSE

A draft of this report was provided to the Department’s Acting CIO on
November 1, 2012. On November 13, 2012, we received the Department’s
response, which can be found in its entirety in the Appendix. In its response, the
Department highlighted the progress it made during fiscal year 2012 to improve its
cyber security. In addition, the Department outlined its priorities for fiscal year
2013, and committed to providing us with specific planned actions and milestones
to address our recommendations.
                                                                                 21




ACTIONS REQUIRED

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your detailed action plans and target dates for the
recommendations in this report within 30 calendar days. We will review the
Acting Chief Information Officer’s detailed action plans when provided to
determine whether they satisfy the intent of our recommendations. All corrections
are subject to follow-up provisions in DOT Order 8000.1.C. We appreciate the
courtesies and cooperation of the CIO Office and the Operating Administrations’
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1959; Lou E. Dixon, Principal Assistant Inspector
General for Auditing and Evaluation, at (202) 366-1427; or Louis C. King,
Assistant Inspector General for Financial and Information Technology Audits, at
(202) 366-1407.


cc: Deputy Secretary
    Assistant Secretary for Budget and Programs/Chief Financial Officer
    CIO Council Members
    DOT Audit Liaison, M-1
                                                                                22



EXHIBIT A. SCOPE AND METHODOLOGY
The Federal Information Security Management Act of 2002 (FISMA) requires us
to perform an independent evaluation to determine the effectiveness of the
Department’s information security program and practices. FISMA further requires
that our evaluation include testing of a representative subset of systems and an
assessment, based on our testing, of the Department’s compliance with FISMA
and applicable requirements. On February 15, 2012, the Department of Homeland
Security (DHS) issued FISM 12-02, FY 2012 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy Management,
which provides instructions to Inspectors General for the completion of their
FISMA evaluations and the required DHS template.

To meet FISMA and OMB requirements, we selected a representative subset of 58
of 420 departmental systems (see Table 9 below) and reviewed the compliance of
these systems with NIST and DHS requirements in the following areas: risk
categorization; security plans; annual control testing; contingency planning;
certification and accreditation; incident handling; and plans of actions and
milestones. To evaluate USGCB/FDCC compliance within the Department, we
selected a stratified sample of 1,257 out of 82,963 devices to be scanned for
compliance. We created a script to extract the test results of FDCC/USGCB
controls from 340 out of 1,257 devices that were available for scanning.

We evaluated prior year recommendations and supporting evidence to determine
what progress if any was made in the areas of continuous monitoring,
configuration management, risk management, security training, contractor
services, and identity and account management. In addition, we also conducted
testing to assess the Department’s inventory, its overall process for resolution of
information security weaknesses, configuration management, incident reporting,
security-awareness training, remote access, security capital planning, and account
and identity management. Our tests included analysis of data contained in the
Department’s CSAM system, reviews of supporting documentation, and
interviews with departmental officials. We conducted this audit between February
and October 2012 in accordance with generally accepted Government auditing
standards. As agreed to with the Department our FISMA review covered through
year-ending July 31, 2012.




Exhibit A: Scope and Methodology
                                                                                       23


Table 9: OIG’s Representative Subset of DOT Systems, by OA
No.   System                                                       Impact     Contractor
                                                                                       a
                                                                   Level      System?
Federal Aviation Administration
1     Whistleblower Protection Program                             High          No
2     Inspector Credentials                                        High          No
3     Web Operations Safety System                                 High          No
4     Facility Safety Assessment System-ATO                        Low           No
5     Bandwidth Manager                                            Moderate      No
6     AST Local Area Network                                       Moderate      No
7     Air Route Surveillance Radar Model 4                         Moderate      No
8     Aircraft Certification Office Subsystem                      Moderate      No
9     Safety Management Information System                         Moderate      No
10    Interim Voice Switch Replacement System                      Moderate      No
11    Advanced Qualification Program                               Low           No
12    Obstruction Evaluation/Airport Airspace Analysis             Low           No
13    Safety Issues Reporting System                               Moderate      No
14    Monitor Safety Analyze Data                                  Moderate      No
15    FAA Read-Only Data Interface                                 Moderate      Yes
16    Real Estate Management System                                Moderate      No
17    ESC Department of Commerce Infrastructure                    Moderate      No
18    ATO Application Portal                                       Moderate      No
19    Messaging Services                                           Moderate      No
20    Data Multiplexing Network                                    Moderate      No
21    Technical Support Services Contract- Work Release Information Low          No
      Tracking System
22    Enhanced Terminal Voice Switch                               Moderate      No
Federal Highway Administration
23    Rapid Approval & State Payment System                        High          No
24    ITD Application and Oracle Database Servers                  High          No
25    FHWA Organization Information System                         Moderate      No
26    Motor Fuels and Finance Analysis System – Highways           Low           No
27    Federal Lands Labor Cost Distribution Process                Low           No
Federal Motor Carrier Safety Administration
28    CDLIS-Gateway                                                Moderate      Yes
29    Hazardous Material Package Inspection Program                Moderate      No
30    Performance and Registration Information Systems             Low           No
      Management
Federal Railroad Administration
31    Track Research Instrumentation Platform Information System   Moderate      Yes
32    Locomotive Engineer Training Simulator                       NC            No



Exhibit A: Scope and Methodology
                                                                                                                    24


No.      System                                                                          Impact          Contractor
                                                                                                                  a
                                                                                         Level           System?
Federal Transit Administration
33       TEAM                                                                            Moderate             No
34       FTA Inter/Intranet                                                              Moderate             No
Maritime Administration
35       Maritime Service Compliance System                                              Moderate             No
36       Electronic Invoice System                                                       Moderate             No
37       FOIAXpress                                                                      Low                 Yes
National Highway Traffic Safety Administration
38       EDS                                                                             Moderate             No
39       Artemis                                                                         Moderate             No
Office of Inspector General
40       US DOT/OIG Infrastructure                                                       Moderate             No
41       US DOT/OIG TIGR System                                                          Moderate             No
Office of the Secretary of Transportation
42       Drug and Alcohol Testing Management Information System                          Moderate             No
43       Facilities and Building Management System                                       Moderate             No
44        Web Printing System                                                            Moderate             No
45       CASTLE                                                                          Moderate             No
46       Cyber Security Assessment and Management                                        High                 No
47       Security Operations Systems                                                     High                 No
Pipelines and Hazardous Materials Safety Administration
48       Hazardous Materials Information System                                          Moderate             No
49       PHMSA Portal System                                                             Moderate             No
Research and Innovative Technology Administration
50       RITA Mission Support                                                            Low                  No
51       IEC Data Warehouse                                                              Moderate             No
52       Transtats                                                                       High                 No
53       Airline Reporting Data Information System                                       High                 No
Saint Lawrence Seaway Development Corporation
54       Financial Management System                                                     Low                  No
                                        b
Surface Transportation Board
55       Case Management System                                                          Moderate             No
56       Local Area Network                                                              Moderate             No
Common Operating Environment
57       Common Operating Environment                                                    High                 No
58       Business Communications System                                                  Moderate             No
Source: OIG
a
    DOT Cyber security Definition of Contractor System
b
    For purpose of this report, STB were selected as part of the sample. Exhibit C defines STB obligation to comply with
     DOT requirements.




Exhibit A: Scope and Methodology
                                                                                25



As required, we submitted to OMB qualitative assessments pertaining to DOT’s
information security program and practices. In addition to the preparation of our
submission, we reviewed the Department’s progress in resolution of weaknesses
and implementation of recommendations identified in our prior FISMA reports.

We performed our information security review work between February 2012 and
October 2012. We conducted our work at departmental and OA Headquarters'
offices in the Washington, D.C. We conducted our audit in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Generally accepted government auditing standards require us to disclose
impairments of independence or any appearance thereof. OMB requires that the
FISMA template include information from all DOT OAs, including OIG. Because
the OIG is a small component of the Department, based on number of systems,
any testing pertaining to the OIG or its systems does not impair our ability to
conduct this mandated audit.

Previous audit reports on the Department’s information security program issued in
response to FISMA's mandate include the following:

• Persistent Weaknesses in DOT's Controls Challenge the Protection and
  Security of its Information Systems, FI-2012-007, November 14, 2011
• Timely Actions Needed to Improve DOT's Cybersecurity, FI-2011-022,
  November 15, 2010
• Audit of DOT's Information Security Program and Practices, FI-2010-023,
  November 18, 2009
• DOT Information Security Program, FI-2009-003, October 8, 2008
• DOT Information Security Program, FI-2008-001, October 10, 2007
• DOT Information Security Program, FI-2007-002, October 23, 2006
• DOT Information Security Program, FI-2006-002, October 7, 2005
• DOT Information Security Program, FI-2005-001, October 1, 2004
• DOT Information Security Program, FI-2003-086, September 25, 2003
• DOT Information Security Program, FI-2002-115, September 27, 2002
• DOT Information Security Program, FI-2001-090, September 7, 2001




Exhibit A: Scope and Methodology
                                                                                   26


EXHIBIT B. Status of Prior Year’s Recommendations

Table 10: OIG Recommendations for Fiscal Year 2011, and Their
Status
No. Status   Recommendation
1   Partially Address these policy and procedural weaknesses:
    Closed • Issue information security policy for OST,
              • Enhance existing policy to address security awareness training for
                 non-computer users, address security costs as part of capital
                 planning, correct the definition of "government system", and address
                 the identification, monitoring, tracking and validation of users and
                 equipment that remotely access DOT networks and applications.
              • In conjunction with the OA CIOs, execute a strategy to ensure that
                 sufficient procedural guidance exists for DOT and the OAs.
2   Open     In conjunction with OA CIOs, establish incident monitoring and detection
             capabilities to include all of the Department's systems and facilitate
             central and real-time reporting.
3   Open     In conjunction with OA CIOs, create, complete or test contingency plans
             for deficient systems.
4   Closed In conjunction with OA CIOs, verify that backup media are properly
           secured and regularly tested.
5   Open     In conjunction with OA CIOs, verify that minimum security controls are
             adequately tested for deficient systems.




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                      27


Table 11: OIG Recommendations for Fiscal Year 2010, and Their
Status
No. Status   Recommendation
1   Closed Address these policy and procedural weaknesses:
           • Develop procedural guidance for the C&A process. In addition, modify
             existing certification and accreditation policy and procedures to
             address inheritance of common information security controls, and to
             provide procedural guidance to modes.
           • Correct POA&M policy to prioritize weaknesses in a way that ensures
             that high priority weaknesses are resolved before medium priorities,
             and medium ones before low ones. In addition, develop procedural
             guidance to ensure consistency of the POA&M process and to facilitate
             CIO's oversight and management of weaknesses.
           • In conjunction with the modes, develop procedural guidance for
             tracking and training personnel with significant security responsibilities.
             This guidance should address maintaining complete inventories of
             such personnel, and the training needed and provided.
           • Enhance high-level policy with procedural guidance to ensure
             consistency of the network accounts and identity management.
           • In conjunction with the Assistant Secretary for Administration, complete
             Department-wide PIV operating procedures, including procedures to
             terminate PIV cards.
           • Review and revise all configuration management policy and develop
             specific details for activities that are common across the department.
             As part of this effort, develop procedural guidance that would define
             requirements for OAs to use when developing configuration
             management procedures specific to their operation.
           • Develop procedural guidance that would define requirements for OAs
             to use when developing incident handling procedures specific to their
             operation.
           • Enhance policy and procedural guidance to incorporate detailed
             guidance for managing, monitoring and reporting FDCC compliance,
             including the use of SCAP tools to ensure FDCC compliance. Once
             policy adequately addresses contractor oversight per Recommendation
             4 of last year's report, develop relevant procedural guidance. This
             policy should establish the criteria and guidelines for DOT’s
             identification and reporting of contractor systems consistent with OMB
             requirements
           • Enhance high-level policy with procedural guidance to ensure remote
             access and wireless networking is authorized, managed and monitored
             in compliance with OMB, NIST and DOT policies.
2   Closed To the extent the OAs require their own guidance, review guidance to
           verify compliance with department policies and procedures.
3   Closed Implement a quality assurance process to review OA
           specific configuration management procedures to ensure that they adhere
           to the departmental policy and Federal requirements.




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                        28


No. Status    Recommendation
4    Open     Implement a process to review OAs security configuration management
              practices and software scanning capabilities. Provide monitoring of OAs
              practices to ensure they are adhering to the policy and practices.
5    Closed Require OST to implement required system patches on their Delphi
            system.
6    Open     Conduct scanning of all DOT networks to ensure compliance with FDCC
              requirements. In addition, review results of modal SCAP compliance
              scans to identify and resolve incorrect FDCC settings.
7    Closed Require and approve deviation requests for those non-conforming
            settings that are truly needed and for which risks have been mitigated and
            accepted.
8    Open     Conduct periodic tests to assess FDCC compliance and deployment of
              patches, including service packs.
9    Open     Analyze the incorrect FDCC configuration settings identified in our testing,
              and for those that do not have approved deviations, require OAs to create
              POA&Ms to correct the settings.
10   Closed Implement a practice to review OA specific incident handling procedures
            to ensure that they adhere to the departmental policy.
11   Closed Implement a process to review reported incidents to ensure timely
            reporting to US-CERT. In addition, provide monitoring of incidents
            reported to ensure all required data in the tracking system(s) is up-to-date
            for incidents sent and data received back for US-CERT.
12   Open     Review FHWA, FMCSA, FRA, FTA and RITA automated scans
              confirming timely resolution of vulnerabilities. If deficiency is found
              require OA to provide corrective action and to update plan of actions and
              milestone to address weakness.
13   Closed Require OAs to reconcile their contractor records with DOT security
            department and update their records accordingly. Monitor and report to
            the Deputy Secretary, Operating Administrations’ progress in resolving
            the discrepancy with their contractor records and DOT security
            department.
14   Open     Identify and implement automated tools to better track contractors and
              training requirements.
15   Closed In conjunction with the MARAD, create a POAM for each system that is
            missing a certification and accreditation. This POAM should be properly
            prioritized to ensure this critical matter is immediately addressed.
16   Closed In conjunction with MARAD, promptly update Cyber Security Assessment
            and Management (CSAM) system to reflect its current system inventory
            and related information (including status of certification and accreditation).
17   Closed Work with MARAD to finalize agreements with C&A service providers to
            certify MARAD systems.
18   Open     Review the results of OA assessments to determine an accurate
              inventory of contractor systems.




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                            29


No. Status    Recommendation
19   Closed Work with the Department's acquisition personnel to develop common
            contract language that requires IT contractors to enforce applicable
            FISMA and OMB requirements. Once this language is approved, review
            all new planned IT acquisitions, prior to award, to verify that this clause is
            contained in the statement of work or comparable document.
20   Open     Research and standardize automated tools that will proactively monitor
              remote devices connecting to DOT networks.
21   Open     Conduct tests of remote access solutions to ensure they comply with
              Federal requirements and DOT guidance.
22   Closed In conjunction with the Assistant Secretary for Administration, develop a
            Department-wide implementation plan that specifies resources needed,
            responsible parties, strategies for risk mitigation, etc., to ensure that all
            employees and contractors receive PIV cards by December 31, 2010.
23   Open     Implement the use of PIV cards as the primary authentication mechanism
              to support multi-factor authentication at the system and application level
              for all DOT's employees and contractors.
24   Closed Perform periodic reviews of active user accounts and network devices to
            identify accounts that need to be disabled.
25   Closed Work with OAs to identify and logically segregate user accounts and
            service (role) accounts.
26   Closed Work with OAs to implement automated mechanisms to disable inactive
            accounts, as specified by DOT policies, and to audit account creation,
            modification, disabling, and termination actions.
27   Open     Educate and assist OAs in implementing dual accounts for administrators.
              Subsequently, conduct reviews to determine that all DOT GSSs use
              these accounts.
Source: OIG




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                          30


Table 12: OIG Recommendations for Fiscal Year 2009, and Their
Status
No. Status    Recommendation
1    Closed Revise the incident response policy to identify conditions under which
            incidents should be reported to law enforcement (i.e., OIG), how the
            reporting should be performed, what evidence should be collected, and
            how it should be collected
2    Closed Revise the security awareness and training policy to include the
            identification of all users, such as employees, contractors, and others
            requiring access to DOT information systems. Include provisions in the
            policy to separate these active user accounts from the non-person
            accounts.
3    Closed Revise training policy to list the job functions that require specialized
            security training and the type of specialized training that is required for
            those job functions as described in NIST SP 800-16.
4    Closed Revise policy to address security of information and information systems
            managed by contractors, including information security roles and
            responsibilities, security control baselines and rules for departures from
            baseline, and rules of behavior for contractors and minimum
            repercussions for noncompliance.
5    Closed Revise the interface agreement policy to incorporate necessary elements,
            such as purpose of the interconnection, description of security controls,
            schematic of interconnection, timelines for terminating or reauthorizing the
            interconnection, and authority of establishing the interconnection.
6    Closed Revise the plan of action and milestones policy to address all the OMB
            requirements, including description of weakness, scheduled completion
            date, key milestones, changes to milestones, source of the weakness,
            and status.
7    Closed Ensure that the Federal Aviation Administration, Saint Lawrence Seaway
            Development Corporation, and Pipeline and Hazardous Materials Safety
            Administration have deployed DOT approved configuration baselines and
            tools to assess implementation status.
8    Open     Use automated tools to periodically verify status of completion reported by
              Operating Administrations and identify deviations from the approved
              baseline configurations.
     Closed Require Operating Administrations to manage identified deviations from
9           approved baseline configurations by tracking and resolving significant
            baseline configuration weaknesses in plan of actions and milestones.
10   Closed Work with Operating Administration Chief Information Officers to ensure
            that all new IT contracts include the acquisition language on common
            security configurations as required by DOT and OMB M-07-18.
11   Closed Work with the CSMC to develop a process to ensure that all Department
            of Homeland Security reference numbers are received and entered into
            the DOT tracking system for confirmation.
12   Closed Develop and establish a tracking system that effectively and routinely
            accounts for all active contractors requiring security awareness training.


Exhibit B. St atus of Prior Year’s Recommendations
                                                                                       31


No. Status    Recommendation
13   Closed Develop a mechanism to enforce that all employees including contractors
            with login privileges have completed the required annual security
            awareness training in order to gain and maintain access to Department
            information systems.
14   Closed Identify and ensure all employees with significant security responsibilities
            take the necessary specialized security training to fulfill their
            responsibilities.
15   Closed Monitor, and report to the Deputy Secretary, Operating Administrations’
            progress in resolving long overdue security weaknesses, reestablishing
            target completion dates in accordance with departmental policy, providing
            cost estimation for fixing security weaknesses, prioritizing weaknesses,
            and recording all identified security weaknesses in plan of actions and
            milestones.
16   Open     Ensure accurate information is used to monitor Operating Administrations’
              progress in correcting security weaknesses.
17   Close    Require Chief Information Security Officer and Operating Administrations
              conduct a review to identify all interfaces with systems external to the
              Department, ensure related security agreements are adequate, and track
              them in the Cyber Security Assessment and Management system.
18   Closed Ensure that Maritime Administration properly inventories its information
            systems and tracks them in the Cyber Security Assessment and
            Management system. (MARAD)
19   Closed Ensure that Maritime Administration certifies and accredits each system in
            the revised inventory. (MARAD)
20   Open     Improve its quality assurance checks on the Operating Administrations’
              certifications and accreditations by increasing the frequency and scope of
              its checks, communicating results and expected actions to the Operating
              Administrations, requiring updated plan of actions and milestones to
              address weaknesses noted (including those found in the Inspector
              General reviews), and follow-up on resolution of weaknesses noted.
21   Closeda Require Federal Aviation Administration, Federal Highway Administration,
             Federal Railroad Administration, Maritime Administration, Office of the
             Secretary of Transportation and Pipelines and Hazardous Materials
             Safety Administration to conduct system contingency testing of the
             systems that did not have evidence that of such tests.
22   Open     Develop a process to ensure Operating Administrations continuously
              monitor and test information system security controls.
23   Closed Finalize the inventory count for systems containing privacy information.
24   Closed Work with Operating Administrations to complete privacy impact
            assessments for applicable information systems.
25   Closed Work with the Federal Aviation Administration to establish a reasonable
            target date for the completion of the reduction of social security numbers
            recorded in its systems.
26   Closedb Implement 2-factor authentication for remote access.



Exhibit B. St atus of Prior Year’s Recommendations
                                                                                     32


No. Status   Recommendation
27 Open        Implement NIST-approved encryption on all mobile computers/devices.
Source: OIG
a
  Replaced with 2011 Recommendation No. 3
b
  Merged into 2010 Recommendation No. 23




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                                                       33



EXHIBIT C. DOT OPERATING ADMINISTRATIONS AND SYSTEM
INVENTORY COUNTS

Table 13: OA System Inventory Counts for Fiscal Years 2012 and
2011
                                                                                                 Fiscal Year
                   a
    Organization                                                                          2012                  2011
    Federal Aviation Administration (FAA)                                                283                    297
    Federal Highway Administration (FHWA)                                                  21                     21
    Federal Motor Carrier Safety Administration (FMCSA)                                    18                     18
    Federal Railroad Administration (FRA)                                                  14                     13
    Federal Transit Administration (FTA)                                                     5                     5
    Maritime Administration (MARAD)                                                        20                     25
    National Highway Traffic Safety Administration (NHTSA)                                 10                     11
    Office of Inspector General (OIG)                                                        2                     2
                                         b
    Office of the Secretary (OST)                                                          30                     31
    Pipeline and Hazardous Materials Safety Administration
                                                                                             7                     5
    (PHMSA)
    Research and Innovative Technology Administration (RITA)                               15                     14
    Saint Lawrence Seaway Development Corporation (SLSDC)                                    1                     1
                                                  c
    Surface Transportation Board (STB)                                                       2                     2
Total Systems                                                                            428                    445
Source: OIG, and DOT CSAM as of August 6, 2010
a
    For purposes of reporting under FISMA, we consider "Operating Administrations" to include all organizations listed
   above.
b.
   For purposes of reporting under FISMA COE systems are counted under Office of the Secretary.
c.
    Under 49 U.S.C., Subtitle I, Chapter 7 -- In the performance of STB functions, the members, employees, and other
   personnel of the Board shall not be responsible to or subject to the supervision or direction of any officer, employee,
   or agent of any other part of the Department of Transportation. Accordingly, STB is not obligated to utilize IT
   security policies or procedures provided by the Department of Transportation.




Exhibit C: DO T Operating Administrations and System Inventory
Counts
                                                                       34



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                        Title

Nathan Custer               Program Director

Michael Marshlick           Project Manager

Gerald Steere               Supervisory Information Technology Specialist

Martha Morrobel             Information Technology Specialist

Tracy Colligan              Information Technology Specialist

Jenelle Morris              Information Technology Specialist

Jason Mott                  Information Technology Specialist

James Mullen                Information Technology Specialist

Mitch Balakit               Information Technology Specialist

Nileshkumar Patel           Information Technology Specialist

LaKarla Lindsay             Referencer

Petra Swartzlander          Senior Statistician

Megha P. Joshipura          Statistician

Karen Sloan                 Communications Analyst

Susan Neill                 Writer-Editor




Exhibit D. Major Contributors to This Report
                            35



APPENDIX. AGENCY COMMENTS




Appendix. Agency Comments
                            36




Appendix. Agency Comments
                            37




Appendix. Agency Comments
